TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Status of Implementation of the Federal
                   Financial Management Improvement Act



                                          April 30, 2014

                             Reference Number: 2014-10-026




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                     HIGHLIGHTS


STATUS OF IMPLEMENTATION OF THE                          accurately quantify the amount of unpaid tax
FEDERAL FINANCIAL MANAGEMENT                             assessments owed to the IRS.
IMPROVEMENT ACT                                          IRS management advised TIGTA that they
                                                         cannot determine when they will achieve
                                                         compliance with the FFMIA because it is largely
Highlights                                               contingent on the implementation of the
                                                         Customer Account Data Engine 2 (CADE 2). As
Final Report issued on April 30, 2014                    TIGTA previously reported, the IRS has not
                                                         included any specific details related to the
Highlights of Reference Number: 2014-10-026              CADE 2 in its remediation plan. Because the
to the Internal Revenue Service Chief Financial          IRS has indicated that the CADE 2 is a key
Officer.                                                 piece of its strategy to address its material
                                                         weakness related to unpaid tax assessments,
IMPACT ON TAXPAYERS                                      TIGTA continues to believe that CADE 2
The Federal Financial Management                         implementation and associated cost estimates
Improvement Act (FFMIA) remediation plan is a            should be included in the remediation plan.
critical part of the IRS’s efforts to bring its
                                                         WHAT TIGTA RECOMMENDED
financial management systems into compliance
with the FFMIA and to provide reliable and               TIGTA did not make any recommendations in
timely financial data. Complete and reliable             this report. However, a discussion draft of the
financial information is critical to the IRS’s ability   report was provided to the IRS for review and
to accurately report on the results of its               comment. In its response, the IRS stated that it
operations to both internal and external                 is planning to reassess the November 2014
stakeholders, including taxpayers.                       closing date for the unpaid assessments
                                                         material weakness once the scope for the
WHY TIGTA DID THE AUDIT                                  CADE 2 Transition State 2 has been
The overall objectives of this review were to            determined.
identify any instances of and reasons for missed
intermediate target dates established in the
IRS’s Fiscal Year 2013 FFMIA remediation plan
and to determine whether the IRS has taken
adequate corrective actions on prior audit
findings related to the plan.
WHAT TIGTA FOUND
The IRS has continued to take action on internal
control weaknesses that affect its financial
reporting. For example, the IRS closed seven of
11 open remediation actions during Fiscal
Year 2013 and did not miss any intermediate
target dates on its remediation plans related to
the unpaid tax assessments material weakness.
However, in December 2013, the Government
Accountability Office reported that because of
the material weakness in the IRS’s internal
controls over unpaid tax assessments and the
associated system deficiencies, the IRS financial
management systems did not comply with the
Federal financial management systems
requirements. The unpaid tax assessments
material weakness affects the IRS’s ability to
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            April 30, 2014


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER



 FROM:               (for)   Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Status of Implementation of the Federal Financial
                             Management Improvement Act (Audit # 201410001)

 This report presents the results of our review of the status of implementation of the Federal
 Financial Management Improvement Act. The overall objectives of this review were to identify
 any instances of and reasons for missed intermediate target dates established in the Internal
 Revenue Service’s (IRS) Fiscal Year 2013 Federal Financial Management Improvement Act
 remediation plan and to determine whether the IRS has taken adequate corrective actions on our
 Fiscal Year 2012 audit findings related to the plan. This review is included in our Fiscal
 Year 2014 Annual Audit Plan and addresses the major management challenge of Achieving
 Program Efficiencies and Cost Savings.
 The Treasury Inspector General for Tax Administration made no recommendations as a result of
 the work performed during this review. However, a discussion draft of the report was provided
 to the IRS for review and comment. Management’s complete response is included as
 Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report. If you have
 any questions, please contact me or Gregory Kutz, Assistant Inspector General for Audit
 (Management Services and Exempt Organizations).
                                          Status of Implementation of the
                                  Federal Financial Management Improvement Act




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          No Intermediate Target Dates Were Missed and Extension of Time
          Was Approved .............................................................................................. Page 3
          Unpaid Tax Assessments Material Weakness Remains a Challenge ........... Page 4

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 6
          Appendix II – Major Contributors to This Report ........................................ Page 8
          Appendix III – Report Distribution List ....................................................... Page 9
          Appendix IV – Management’s Response to the Draft Report ...................... Page 10
                 Status of Implementation of the
         Federal Financial Management Improvement Act




                 Abbreviations

CADE 2     Customer Account Data Engine 2
FFMIA      Federal Financial Management Improvement Act
FY         Fiscal Year
GAO        Government Accountability Office
IRS        Internal Revenue Service
                                     Status of Implementation of the
                             Federal Financial Management Improvement Act




                                            Background

The Federal Financial Management Improvement Act of 1996 (FFMIA)1 was established to
advance Federal financial management by ensuring that Federal financial management systems
provide accurate, reliable, and timely financial management
information to the Government’s managers. Further, the Act
                                                                   As of December 2013, the
required this disclosure should be done on a basis that is        Government Accountability
uniform across the Federal Government from year to year by      Office continued to report that
consistently using professionally accepted accounting           the Internal Revenue Service’s
standards. Specifically, FFMIA Section 803 (a) requires         internal controls over financial
each agency to implement and maintain systems that comply         reporting are not effective.
substantially with:
       Federal Government financial management systems requirements.
       Applicable Federal Government accounting standards.
       The United States Government Standard General Ledger2 at the transaction level.
The FFMIA also required financial statement auditors3 to report on agency compliance with the
three stated requirements as part of financial statement audit reports, and agency heads are
required to determine, based on the audit report and other information, whether their financial
management systems comply with the FFMIA requirements. If the agency does not comply, the
agency is required to develop remediation plans that describe the resources, remedies, and
intermediate target dates for achieving compliance, and file the plans with the Office of
Management and Budget. In addition, Section 804 (b) requires that the agency’s Inspector
General shall report to Congress instances and reasons when an agency has not met the
intermediate target dates established in the remediation plan.
In December 1993, the Government Accountability Office (GAO) reported on significant financial
management weaknesses 4 that impacted the Internal Revenue Service’s (IRS) ability to account for
unpaid tax assessments.5 Because the GAO has reported noncompliance with the requirements of


1
  Pub. L. No. 104-208, 110 Stat. 3009.
2
  Provides a uniform Chart of Accounts and technical guidance to be used in standardizing Federal agency
accounting.
3
  The Government Accountability Office is responsible for auditing the IRS’s financial statements annually.
4
  GAO (formerly known as the General Accounting Office), GAO/AIMD-94-22, Financial Management: Important
IRS Revenue Information Is Unavailable or Unreliable (Dec. 21, 1993).
5
  An unpaid tax assessment is a legally enforceable claim against a taxpayer and consists of taxes, penalties, and
interest that have not been collected or abated (a reduction in a tax assessment).
                                                                                                          Page 1
                                      Status of Implementation of the
                              Federal Financial Management Improvement Act



the FFMIA, primarily because of the weaknesses in unpaid tax assessments, the IRS has been
required to prepare and maintain a remediation plan.
Over the last 20 years, the IRS has implemented numerous systems resulting in incremental
improvements to its financial management systems. Many of these systems helped improve the
IRS’s ability to more accurately report financial information, but the overall material weakness6
remains. In January 2010, the IRS implemented a new accounting system, the Redesign
Revenue Accounting Control System, which allowed the IRS to post transactions in compliance
with Federal Government requirements, support traceability for revenue transactions, and further
assist the IRS in becoming compliant with the FFMIA. However, in GAO’s December 2013
report, it reported that the IRS continues to have a material weakness related to its unpaid tax
assessments on its financial statements, e.g., unpaid tax assessments, which affects the IRS’s ability
to accurately quantify the amount of unpaid tax assessments.7
This review was performed at the IRS Headquarters in Washington, D.C., in the office of the
Chief Financial Officer during the period October 2013 through March 2014. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




6
  In May 2013, the GAO explained that a material weakness is a deficiency, or combination of deficiencies, in
internal control such that there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected, on a timely basis. A significant deficiency is a
deficiency, or combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A deficiency in internal control exists when
the design or operation of a control does not allow management or employees, in the normal course of performing
their assigned functions, to prevent, or detect and correct, misstatements on a timely basis.
7
  GAO, GAO-14-169, Financial Audit: IRS’s Fiscal Years 2013 and 2012 Financial Statements (Dec. 12, 2013).
                                                                                                           Page 2
                                     Status of Implementation of the
                             Federal Financial Management Improvement Act




                                     Results of Review

During Fiscal Year (FY)8 2013, the IRS continued to take action on internal control weaknesses
that affect its financial reporting. For example, the IRS closed seven of 11 open remediation
actions and did not miss any intermediate target dates on its remediation plans related to the
unpaid tax assessments material weakness. However, IRS management advised us that they
cannot determine when they will achieve compliance with the FFMIA because it is largely
contingent on the implementation of the Customer Account Data Engine 2 (CADE 2) Transition
State 2.9
As we have previously reported, the IRS has not included any specific details related to the
CADE 2 in its remediation plans.10 Also, because the IRS has encountered delays in
implementing the CADE 2, it is unclear when it will be fully compliant with the FFMIA
requirements. Because the IRS has indicated that the CADE 2 is a key piece of its strategy to
address its material weakness related to unpaid tax assessments, we continue to believe CADE 2
implementation and associated cost estimates should be included in the remediation plan.

No Intermediate Target Dates Were Missed and Extension of Time
Was Approved
Our review identified that the IRS did not miss any intermediate target dates on its remediation
plans related to the unpaid tax assessments material weakness. At the end of FY 2013, the IRS
completed seven of 11 remediation actions and the remaining four actions were still open. All
four of the open actions were associated with improvements to the unpaid tax assessments
material weakness.
The FFMIA requirements state there is a three-year time period for an agency’s remediation plan
to bring its financial management systems into substantial compliance.11 However, there are
provisions to allow an agency to receive an extension of time. The target dates for the four open
remediation actions were extended more than three years from the initial determination that IRS
financial management systems were not in substantial compliance with the FFMIA. As required,


8
  Any yearly accounting period, regardless of its relationship to a calendar year. The Federal Government’s fiscal
year begins on October 1 and ends on September 30.
9
  The CADE 2 is part of the IRS’s modernization efforts. CADE 2 Transition State 2 planned scope focuses, in part,
on resolving financial material weaknesses.
10
   Treasury Inspector General for Tax Administration, Ref. No. 2011-10-041, Challenges Continue With Reporting
Complete and Accurate Information in the Federal Financial Management Improvement Act Remediation Plan
(May 2011).
11
   Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                                          Page 3
                                     Status of Implementation of the
                             Federal Financial Management Improvement Act



the IRS, through the Department of the Treasury, properly obtained Office of Management and
Budget concurrence to extend its corrective actions beyond the three-year limitation.

Unpaid Tax Assessments Material Weakness Remains a Challenge
According to IRS management, the CADE 2 is expected to provide better clarity and
transparency of IRS accounts which will lead to more accurate reporting of the IRS’s unpaid tax
assessments. However, the IRS has encountered challenges in implementing the CADE 2. The
IRS had planned to implement the CADE 2 by November 2014, but we were advised that date is
no longer achievable. IRS management stated that several factors have delayed the CADE 2
implementation including the Government shutdown, the Affordable Care Act implementation,
and budget shortfalls. The IRS could not determine when the CADE 2 would be functional, but
planned to determine a new implementation date during a strategy meeting which is scheduled
for September 2014.
During this review, we also noted the IRS continues to omit remediation plan actions and cost
estimates for the CADE 2 to address the material weakness of unpaid tax assessments. We
previously recommended that the IRS include CADE 2 actions in its remediation plans.12
However, IRS management stated that the FFMIA remediation plan was created to address the
actions required for their financial systems, and they believe that the CADE 2 is not a financial
system; rather, it is a Business Systems Modernization project used to modernize the IRS tax
system for individual taxpayer account data. However, we continue to believe that including
additional remediation plan steps associated with CADE 2 implementation in the current
remediation plan will increase the likelihood of the IRS addressing the material weakness
relating to unpaid tax assessments.

The GAO continues to report that internal controls over financial reporting are not
effective
While reviewing the IRS’s 2012 and 2013 financial statements, the GAO reported that the IRS’s
internal controls over financial reporting were not effective.13 The GAO found that the IRS was
unable to rely on its general ledger and underlying subsidiary ledgers for tracing reported taxes
receivable to supporting transactions and was unable to effectively prevent or detect and correct
errors in taxpayer accounts. Because of these issues, the GAO reported that the IRS has a material
weakness related to its unpaid tax assessments on its financial statements. The unpaid tax
assessments material weakness affects the IRS’s ability to accurately quantify the amount of unpaid
tax assessments owed to the IRS.


12
   Treasury Inspector General for Tax Administration, Ref. No. 2011-10-041, Challenges Continue With Reporting
Complete and Accurate Information in the Federal Financial Management Improvement Act Remediation Plan
(May 2011).
13
   GAO, GAO-14-169, Financial Audit: IRS’s Fiscal Years 2013 and 2012 Financial Statement (Dec. 12, 2013).
                                                                                                        Page 4
                                 Status of Implementation of the
                         Federal Financial Management Improvement Act



In addition, the GAO reported that the IRS’s controls over its process for estimating the balances
of unpaid tax assessments were not effective to ensure the proper accounting classification and
dollar amounts. This deficiency increases the risk that a material misstatement of the IRS’s
financial statements may not be prevented, or detected and corrected, on a timely basis. The
GAO noted that the deficiencies are primarily caused by the IRS’s continued reliance on systems
that were not designed to provide timely transaction level information. Therefore, the Treasury
Inspector General for Tax Administration will continue to monitor the IRS’s progress in
achieving compliance with the FFMIA but is not making new recommendations at this time.




                                                                                           Page 5
                                 Status of Implementation of the
                         Federal Financial Management Improvement Act



                                                                                    Appendix I

       Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to identify any instances of and reasons for missed
intermediate target dates established in the IRS’s FY 2013 FFMIA remediation plan and to
determine whether the IRS has taken adequate corrective actions on our FY 2012 audit findings
related to the FFMIA remediation plan. To accomplish our objectives, we:
I.     Gained an understanding of the requirements of the FFMIA, including Office of
       Management and Budget and Department of the Treasury guidance.
II.    Determined whether the IRS’s September 30, 2013, remediation plan was consistent with
       GAO recommendations from prior IRS financial audits and related financial
       management reports.
III.   Determined whether 1) the IRS missed any intermediate target dates established in its
       remediation plan, 2) intermediate target dates were extended without sufficient
       documentation to support the revised dates, and 3) proper approval was obtained for
       remedial actions extending more than three years.
       A. Verified that all remedial actions have intermediate target dates established.
       B. Identified any intermediate target dates extending more than three years since the
          noncompliance issue was first identified in a financial statement audit and associated
          FFMIA compliance report by the GAO.
IV.    Determined whether the IRS had taken adequate corrective actions on our FY 2012 audit
       findings related to the FFMIA remediation plan.
       A. Identified the prior year’s Treasury Inspector General for Tax Administration audit
          findings and corresponding management responses concerning corrective actions that
          should have been completed by the time of our audit.
       B. Confirmed through discussions and observations whether actions had been
          completed.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objectives: the IRS’s policies, procedures,

                                                                                            Page 6
                               Status of Implementation of the
                       Federal Financial Management Improvement Act



and practices for tracking remediation actions implemented due to identified material
weaknesses. We evaluated these controls by interviewing management and reviewing applicable
documentation.




                                                                                    Page 7
                               Status of Implementation of the
                       Federal Financial Management Improvement Act



                                                                            Appendix II

                Major Contributors to This Report

Gregory Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jonathan T. Meyer, Director
Janice M. Pryor, Audit Manager
Ahmed M. Tobaa, Lead Auditor
Mary F. Herberger, Senior Auditor




                                                                                      Page 8
                               Status of Implementation of the
                       Federal Financial Management Improvement Act



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Deputy Chief Financial Officer OS:CFO
Associate Chief Financial Officer for Corporate Planning and Internal Controls OS:CFO:CPIC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office Of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
    Deputy Commissioner for Operations Support OS
    Chief Financial Officer OS:CFO
    Chief Technology Officer OS:CTO




                                                                                     Page 9
                Status of Implementation of the
        Federal Financial Management Improvement Act



                                               Appendix IV

Management’s Response to the Draft Report




                                                       Page 10
